No. 20A1

In the Supreme Court of the United States
GRETCHEN WHITMER, Governor of Michigan; JOCELYN BENSON, Secretary of
State of Michigan; and JONATHAN BRATER, Director of the Michigan Bureau of
Elections, in their official capacities,
v.

Defendants-Applicants.

SAWARIMEDIA LLC, DEBORAH PARKER, JUDY KELLOGG, and
PAUL ELY,
Plaintiff-Respondents,

APPENDIX A to Plaintiffs-Respondents’ Response to DefendantsApplicants’ Emergency Application to Stay the Preliminary Injunction
Pending a Merits Decision by the Court of Appeals

Appendix A: Plaintiffs’ Reply Brief In Support of Motion for TRO/Preliminary
Injunction

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.178

Page 1 of 18

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

SAWARIMEDIA LLC,
DEBORAH PARKER, JUDY
KELLOGG and PAUL ELY,
Plaintiffs,
v.

Case No. 4:20-CV-11246
Hon. Matthew F. Leitman
Mag. J. Michael J. Hluchaniuk

GRETCHEN WHITMER, Governor of
Michigan, JOCELYN BENSON,
Secretary of State of Michigan and
JONATHAN BRATER, Director of the
Michigan Bureau of Elections, in their
official capacities,
Defendants.

PLAINTIFF SAWARIMEDIA LLC’S REPLY BRIEF IN SUPPORT OF ITS
MOTION FOR TEMPORARY RESTRAINING ORDER, PRELIMINARY
INJUNCTION AND PERMANENT INJUNCTION1

1

NOTE: Plaintiffs’ counsel conferred in advance with the State’s counsel to advise
that this Brief addresses a Petition Clause argument that the pro se Plaintiffs had not
raised. If the Court so desires, Plaintiffs do not object to allowing the State an opportunity to submit a reasonable supplement on this issue.

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.179

Page 2 of 18

This case is about Plaintiffs’ fundamental right to petition the government for
redress, U.S. CONST. amend. I, and the State’s well intentioned but unlawful violation of that and other rights. In response to Plaintiff’s 10-page pro se brief, the State
responded with 32 pages that avoid the key issues and invite error – all in an effort
to deny at most two initiatives a place on the ballot. The correct and constitutional
decision is to grant the injunction Plaintiffs seek, which would prevent Defendants
from applying certain rules to keep them off the ballot. Because of the fast-paced
election season, prompt relief is necessary to have any meaningful redress.
ADDITIONAL BACKGROUND AND FACTS
Plaintiffs filed this lawsuit pro se to challenge the constitutionality of the signature requirements and deadlines of Michigan’s legislative ballot-initiative process,
see generally MICH. COMP. LAWS § 168.471, as applied during Governor Whitmer’s
“Stay-At-Home Orders,” defined below. The Plaintiffs assert rights including equal
protection, speech, association, ballot access and others. Reasonable briefing limitations prevent a discussion of them all. Further briefing is available upon request.
This Reply Brief focuses on certain key rights and principles.
In 2020, Plaintiffs circulated an initiative promoting the kinds of “earned time
off credits” that are common in other States for inmates who engage in self-betterment and rehabilitation. The initiative raises timely political issues involving
strained State budgets, prison overcrowding and the related danger of COVID-19

1

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.180

Page 3 of 18

facing correctional officers and inmates, among other things.
Such legislative initiatives are rooted in Michigan’s constitution. The State
quotes the relevant portion of MICH. COMP. LAWS Art. II, § 9, through which the
people have reserved their right to petition by initiative. (ECF No. 07, PageID.115.).
Under § 471 of Michigan’s Election Law, initiative petitions “must be filed with the
secretary of state at least 160 days before the election . . . if the legislature rejects or
fails to enact the proposed law.” MICH. COMP. LAWS § 168.471. Insofar as the state
constitution and laws violate the U.S. Constitution, the Secretary of State and Director of Elections are not limited merely to interpreting those laws. They also have
relevant gap-filling powers to issue new rules that would provide relief to Plaintiffs.2
The parties agree that 340,047 signatures would usually be required during
this election cycle, absent this Court’s intervention. (Compare ECF No. 1 (Compl.),
2

Secretary Benson “shall promulgate rules” under Michigan’s Administrative Procedures Act (“APA”), MICH. COMP. LAWS §§ “24.201 to 24.328, . . . establishing
uniform standards for state . . . ballot question petition signatures.” MCLS §
168.31(2). She also “shall . . . issue instructions and promulgate rules pursuant to the
[APA] for the conduct of elections and registrations in accordance with the laws of
this state.” MICH. COMP. LAWS § 168.31(1)(a). Similarly, “[t]he director of elections
shall be vested with the powers and shall perform the duties of the secretary of state
under . . . her supervision, with respect to the supervision and administration of the
election laws.” MICH. COMP. LAWS § 168.32(1). The APA defines the term “rule,”
and allows for gap-filling when a law is suspended. “ ‘Rule’ means an agency regulation, statement, standard, policy, ruling, or instruction of general applicability that
implements or applies law enforced or administered by the agency, or that prescribes the organization, procedure, or practice of the agency, including the amendment, suspension, or rescission of the law enforced or administered by the agency.”
MICH. COMP. LAWS § 24.207.
2

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.181

Page 4 of 18

PageID.6, with ECF No. 7 (Defs.’ Resp. Br.), PageID.116-117.) The parties also
agree that a 180-day limit applies to the validity of signatures. MICH. COMP. LAWS
§ 168.472a. Thus, the Parties should recognize via simple math that a weekly average of at least 13,224 signatures shows a substantial modicum of support.
Defendants do not contest that during the 9½ weeks after Plaintiffs filed their
ballot initiative petition and before the first Stay-At-Home Order entered (i.e., from
January 16 to March 23, 2020), Plaintiffs acquired approximately 215,000 valid signatures. (See ECF No. 01, PageID.5-6 ¶¶ 22, 2; ECF No. 07, PageID.16-17.) Plaintiffs were apparently averaging over 22,600 signatures per week, despite the cold
and unfavorable winter months and despite a 2-week period in March when national
and State emergencies strongly squelched petition efforts. In other words, Plaintiffs
almost doubled the necessary modicum, and they were on track to obtain more than
200,000 additional signatures during the last 9 weeks between March 23 and May
27, 2020, which would comfortably exceed the minimum amount.
Of course, the COVID-19 pandemic interfered. Initially, the State declared an
emergency while allowing First Amendment protected activities to proceed. But beginning with Executive Order 2020-21 on March 23, 2020 (Exh. B, PageID.78), the
State entered a series of executive orders requiring Michiganders to stay home and
avoid almost any contact with non-household members (the “Stay-At-Home Orders”
or “Orders”). As the State concedes, the Orders facially do not exempt or

3

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.182

Page 5 of 18

accommodate fundamental rights. (ECF No. 07, PageID.114.) Instead, the State
made it a misdemeanor for Michigan residents to leave their homes in order to conduct ordinary activities that usually accompany ballot initiatives. (E.g., Exh. B,
PageID.78 (“Consistent with MCL 10.33 and MCL 30.405(3), a willful violation of
this order is a misdemeanor.”).) While the State contends that its “FAQ’s” offer an
exception, that informal guidance suffers fatal flaws discussed below. The Stay-AtHome Orders went into effect on March 24, 2020 and remain in effect.3
Meanwhile, the Secretary of State and Director of the Bureau of Elections
have enforced the Governor’s Orders, while holding strictly to the letter of ordinary
laws and regulations governing the people’s right to petition for governmental redress, as well as their rights to speech, association and ballot access.
ARGUMENT
1. Additional Applicable Legal Standards
The balancing test and general standards for granting an ex parte temporary
restraining order or a preliminary injunction are familiar. See, e.g., Stein v. Thomas,
222 F. Supp. 3d 539, 542 (E.D. Mich. 2016) (granting TRO in case impacting the
3

Eked out in roughly 2 or 3-week increments now spanning more than a third of the
Plaintiffs’ 180-day petition-gathering period, the Orders arguably nullified a variety
of fundamental rights, including rights to travel between states, see Roberts v. Neace,
_ F. Supp. 3d. _, 2020 U.S. Dist. LEXIS 77987 (E.D. Ky. May 4, 2020) (citing numerous Supreme Court cases), to travel within a state, see Johnson v. City of Cincinnati, 310 F.3d 484, 496-98 (6th Cir. 2002), discussed in Cole v. City of Memphis,
839 F.3d 530, 535 (6th Cir. 2016), and to associate for political purposes.
4

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.183

Page 6 of 18

right to vote). Where, as here, the balance of the harms weighs much more heavily
upon Plaintiffs, injunctive relief is appropriate “even where [they] fail[ ] to show a
strong or substantial probability of ultimate success” if they “at least show[ ] serious
questions going to the merits.” Jones v. Caruso, 569 F.3d 258, 277 (6th Cir. 2009).
With respect to the factor involving a plaintiff’s likelihood of success, the
closer the plaintiff is to summary judgment, the more likely she is to succeed.4
Where, as here, the defendants bear substantive burden of production on the merits,5
movants such as Plaintiffs at least satisfy any burden of persuasion they may have

4

It stands to reason that where a party is entitled to a summary judgment under
Federal Rule of Civil Procedure 56, there is not only a serious question or a strong
likelihood of success under Rule 65, but also an actual entitlement to success. It
defies logic to say that someone can be entitled to a final judgment without being
entitled to preliminary relief to preserve the status quo. While a plaintiff seeking an
injunction must do more than create a genuine issue sufficient to survive an adverse
summary judgment, see McNeilly v. Terri Lynn Land, 684 F.3d 611, 615 (6th Cir.
2012) (citing Leary v. Daeschner, 228 F.3d 729, 739 (6th Cir. 2000)), the plaintiff
need not do so much as to win a favorable summary judgment at the outset. But the
more they can do so, the clearer their guarantee of success.
5

E.g., Meyer v. Grant, 486 U.S. 414, 426 (1988) (exacting scrutiny); Turner Broadcasting Sys. v. FCC, 512 U.S. 622, 664-65 (1994) (intermediate scrutiny); J & B
Entm't v. City of Jackson, 152 F.3d 362, 370-71 (5th Cir. 1998) (“under an intermediate scrutiny standard of review, the government bears the burden of justifying (i.e.,
both the burden of production and persuasion) the challenged statute.”); see Hassan v. City of N.Y., 804 F.3d 277, 301 (3d Cir. 2015) (“ ‘heightened scrutiny,’ . . .
encompasses both ‘intermediate scrutiny’ and ‘strict scrutiny’ [and] the City bears
the burden of production and proof with respect to both.”); see also Nixon v.
Shrink Mo. Gov't PAC, 528 U.S. 377, 391 (2000) (“The quantum of empirical evidence needed to satisfy heightened judicial scrutiny . . . will vary up or down with
the novelty and plausibility of the justification raised.”). (All emphases added.)
5

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.184

Page 7 of 18

under Federal Rules 56 and 65 by “‘showing’ – that is, pointing out to the district
court – that there is an absence of evidence to support the nonmoving party’s case.”
Celotex Corp. v. Catrett, 477 U.S. 317, 325 (1986). While this burden-shifting consideration always impacts the Court’s evaluation of this factor, other cases might
require more factual background and discovery. This case, however, turns overwhelmingly on the law, while Defendants’ admissions complete the facts. In cases
like this, there is nothing more to discover before granting an injunction.
2. The Court Should Grant Injunctive Relief Because Plaintiffs Have
Shown a First Amendment Violation, and the Balance of the Harms and
Public Interest Weigh Decisively in Their Favor
a. Plaintiffs Easily Demonstrate a Likelihood of Success
i. The State’s Argument About Laches is Frivolous
The State devotes 4 pages to a frivolous argument. Plaintiffs filed their case
on May 4 to seek exclusively declaratory and injunctive relief from a then-continuing harm. (ECF No. 01, PageID.12-13.) They seek to address the application of signature requirements on a post-Complaint filing deadline of May 27, as well as to
address an imminent exclusion from the canvassing process and the ballot, which
has not yet happened. It is settled that laches “does not prevent plaintiff[s] from obtaining [such] injunctive relief or post-filing damages.” Nartron Corp. v. STMicroelecs., Inc., 305 F.3d 397, 412 (6th Cir. 2002), quoted in Ohio A. Philip Randolph
Inst. v. Smith, 335 F. Supp. 3d 988, (S.D. Ohio 2018) (Moore, J. Karen Nelson, sitting on 3-judge panel); see also Concerned Citizens of S. Ohio, Inc. v. Pine Creek
6

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.185

Page 8 of 18

Conserv. Dist., 429 U.S. 651, 653, 656 (1977) (allowing constitutional challenges to
proceed over a dissenting opinion that cited laches in 9-year delay). Even insofar as
the doctrine could apply, it would not favor the State here.6
ii. The Orders Violate the First Amendment.
Although the key path to relief for Plaintiffs focuses on enjoining the State’s
joint application of petition quotas and deadlines along with the Orders, a separate
point about the Orders alone provides a key baseline in the analysis. The Orders
directly burdened the Plaintiff’s right to petition and could not pass strict scrutiny.
Unlike the order at issue in Thompson v. Dewine, _ F.3d _, 2020 WL 2702483,
at *4 (6th Cir. 2020), the Michigan Stay-At-Home Orders do not specifically exempt
constitutionally protected conduct. Instead, they criminalize the common approach
to petitioning for redress. The State’s reliance on informal guidance to suggest that
it might tolerate protected activity falls short for at least three reasons. The Dewine
court identified the most important one:7 an informal FAQ “is not the same as putting
6

Despite being pro se, Plaintiffs acted relatively swiftly. Meanwhile, the State has
had time to fairly respond or change its behavior. It fully researched, briefed, and
maintained its unconstitutional approach throughout the Esshaki case. By May, the
State was ready to quickly answer these Plaintiffs’ case when this Court asked. The
State suffered no prejudice due to any plaintiff and has only itself to blame for failing
to adjust its election process sooner. If they sought relief immediately, they also
could not know if the Stay-at-Home Order would present only a short interruption.
Compare Thompson v. Dewine, _ F.3d _, 2020 WL 2702483, at *4 (6th Cir. 2020)
(burden not severe where order lifted before deadline).
7

The Order also facially demands to be construed broadly. (Id.) Further, the FAQ is
obscure to the general public. On the official page entitled Frequently Asked
7

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.186

Page 9 of 18

the restriction in the order itself.” (PageID.163 (citing Conn. Nat’l Bank v. Germain,
503 U.S. 249, 253–54 (1992); Sosna v. Iowa, 419 U.S. 393, 399–400 (1975).)
Because the Orders criminalize conduct when advocating an initiative, the
Court’s opinion in Meyer v. Grant, 486 U.S. 414 (1988), best guides the analysis,
while offering a distinction that is even more helpful here. There, the Court held
unconstitutional a law that criminalized paying initiative petition-circulators. See id.
at 416. By reducing the number of circulators, the law not only restricted their individual speech but also made public debate of the issue less likely. See id. at 422-23.
Moreover, “[t]he First Amendment protects appellees’ right not only to advocate
their cause but also to select what they believe to be the most effective means for
doing so.” Id. at 424. The fact that they could use “other means to disseminate their
ideas,” could not save a law that “restricts access to the most effective, fundamental,
and perhaps economical avenue of political discourse, direct one-on-one communication.” Id. at 424. Focusing on the impact on their advocacy, id. at 421, the Court
concluded that the law burdened “core political speech,” id., where protection “is ‘at
its zenith’ [and] the burden that [the state] must overcome is well-nigh insurmountable,” id. at 425. The state failed to produce enough evidence to satisfy scrutiny.
COVID-19 Questions on May 31, 2020, undersigned counsel did not see any item
discussing “expressive activities” within the first 20 pages of voluminous questions,
and a search in the page’s search-bar for “expressive” returned zero results.
(https://www.michigan.gov/coronavirus/0,9753,7-406-98810---,00.html.) On the
other hand, a search specifically for “First Amendment” did produce results.
8

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.187

Page 10 of 18

Just as in Meyer, these Orders criminalize conduct that prevents petitioners
from engaging potential supporters in one-on-one political discourse, which for their
less-funded, grassroots campaign is clearly the most economical, fundamental and
effective method. Worse, the Orders did not merely prevent some of Plaintiffs’ petition-circulators from advocating in this chosen fashion. They prevented all from doing so. The burden on the core right is even more severe than in Meyer.
The burden is also more direct in relation to the Petition Clause, rather than
the Speech Clause analyzed in Meyer.8 Justices widely agree that people who create,
circulate and promote ballot initiatives engage in “core” protected activity.9 Such
citizens directly “petition the Government for a redress of grievances.” U.S. CONST.
amend. I. “Petitioning the government and participating in the traditional town meeting were precursors of the modern initiative and referendum.” Doe, 561 U.S. at 223
(Scalia, J., concurring).10 In fact, “[t]he right to petition is in some sense the source

8

Although Meyer is a speech case, whereas the Order directly burdens fundamental
rights under “the Petition Clause, not the Speech Clause,” Borough of Duryea v.
Guarnieri, 564 U.S. 379, 387 (2011), the analyses of these “cognate rights” are
closely related. Cf. id. at 388-89 (“Courts should not presume there is always an
essential equivalence in the two Clauses or that Speech Clause precedents necessarily and in every case resolve Petition Clause claims.”).
9

The Justices may disagree about other points relating to speech and association,
but they agree that circulating an initiative is a quintessential way to petition for
redress. If additional briefing would be useful, Plaintiffs can provide it.
10

“The Petition of Right occupies a place in English constitutional history superseded in importance, perhaps, only by Magna Carta itself and the Declaration of
Right of 1689. * * * The following years saw use of mass petitions to address matters
9

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.188

Page 11 of 18

of other fundamental rights, for petitions have provided a vital means for citizens to
request recognition of new rights and to assert existing rights against the sovereign.”
Borough of Duryea v. Guarnieri, 564 U.S. 379, 397 (2011) (Kennedy, J.).
Insofar as the State now observes that “[t]hese mechanisms of direct democracy are not compelled by the Federal Constitution,” Doe, 561 U.S. at 212 (Sotomayor, J., concurring), that only means the Constitution’s negative ban on abridging the right may not create a positive right requiring every State to formalize an
initiative process. Once Michigan created a process, Plaintiffs’ use of it fell within
the “core” of the petition right. While Michigan had leeway to initially tailor a reasonable process, it could not ban otherwise legitimate activity in midstream as the
Orders did here. Just as in Meyer, the State’s reliance on its freedom to impose limitations on a state-created right “is misplaced.” 564 U.S. at 424.
Like the state’s interest in Meyer of preventing fraud and protecting the integrity of the process, Michigan has some interest in protecting public health. But that
can also be protected through social distancing, masks, and other hygiene measures.
See also Roberts v. Neace, 958 F.3d 409, _ [at *8] (6th Cir. 2020). Michigan could
also have done what Ohio did; namely, exempt First Amendment advocacy from the
of public concern.” Guarnieri, 564 U.S. at 395. Later, in the Colonies, “[p]articipation by ballot and petition not only assured popular control of government, but also
attached to each citizen responsibility for the nation’s laws, or lack thereof.” Higganson, Note: A Short History of the Right To Petition Government for the Redress
of Grievances, 96 Yale L.J. 142, 162 (1986), cited in Guarnieri, 564 U.S. at 394.
10

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.189

Page 12 of 18

Orders. In the 21st Century, narrower and better measures are necessary to address
not only the disease, see Wendy E. Parmet and Michael S. Sinha, Covid-19—The
Law and Limits of Quarantine, 382 NEW ENG. J. MED. 15 (Apr. 2020), available at
https://www.nejm.org/doi/pdf/10.1056/nejmp2004211), but also the legal consequences of taking responsive action.11 No matter how one construes the Supreme
Court’s precedents, strict scrutiny applies to the direct and severe burden that the
Orders impose on the right to petition. Given the availability of other hygiene
measures, the Orders would not even satisfy intermediate scrutiny. Either way, the
State has not satisfied its evidentiary burden. The Orders are unconstitutional.
Finally, this discussion of petition rights helps to distinguish Thompson v.
Dewine, while also resolving other questions about that opinion. The opinion is best
understood as (1) strictly involving the right to ballot access while declining to address the right to petition; and (2) involving state action that expressly exempted
First Amendment activity.12 The latter construction also resolves dicta about rational
11

In extraordinary circumstances, sometimes one must break the law to do the right
thing. Dr. Martin Luther King, Jr., Letter From a Birmingham Jail (April 16, 1963).
With the intent to protect Michiganders from COVID-19 and sometimes from our
own stupidity, Governor Whitmer entered a series of morally wise but unconstitutional Orders. The Supreme Court recognizes, “Extraordinary conditions may call
for extraordinary remedies. But the argument necessarily stops short of an attempt
to justify action which lies outside the sphere of constitutional authority. Extraordinary conditions do not create or enlarge constitutional power.” A.L.A. Schechter
Poultry Corp. v. United States, 295 U.S. 495, 528 (1935).
12

The Thompson court also distinguished the Michigan Orders because the Ohio
Stay-at-Home Order was lifted and the state thus arguably provided the parties with
11

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.190

Page 13 of 18

basis review, (PageID.161), which is otherwise difficult to harmonize.13
iii. The Joint Application of the Orders and the State’s Petition
Rules Violate the First Amendment.
By choosing to endorse and enforce the Governor’s Orders, the Secretary of
State and the Director added a requirement to the State’s initiative process. Moreover, the State imposed the new rules mid-stream, after citizens already relied upon a
preexisting process. The interruption lasted for a longer period in advance of the
deadline than in Esshaki v. Whitmer, 2020 WL 1910154 (E.D. Mich. Apr. 20,
2020).14 No matter how one slices it, that joint application adds to the already-severe

an opportunity to exercise their ballot-access rights and undermined their assertion
that they were excluded from the ballot. Id. at *4.
13

Had the court acknowledged the fundamental right to petition and had it found
that the stay-home order reached that right, strict scrutiny could scarcely have been
avoided given how direct the burden would have been. Instead, the stay-home order
there arguably carved out and exempted First Amendment-protected activity altogether. Insofar as that order – as construed by the Sixth Circuit – actually refrained
from imposing a burden on fundamental rights either facially or in its enforcement,
the court might consistently hold that neither form of heightened scrutiny applied.
That, in turn, would make sense of the court’s otherwise outlier-dicta about rational
basis review, (PageID.161), which only applies when fundamental rights are not affected. Compare Burdick v. Takushi, 504 U.S. 428, 434. Any broader reading of the
dicta puts a too-quick gloss on how the Burdick Court’s descriptive nods to “reasonable” measures fits into the Court’s prescriptive jurisprudence in Anderson-Burdick
and beyond. Cf. id. at 434, cited in PageID.161.
14

The Stay-at-Home Order cost the parties in Esshaki about a month of normal signature collection. However, the Plaintiffs here were denied over two months from
the beginning of the Order until the May 27, 2020 deadline. “So Michigan abruptly
prohibited the plaintiffs from procuring signatures during the last month before the
deadline, leaving them with only the signatures that they had gathered to that point.”
Thompson, at *3.
12

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.191

Page 14 of 18

and constitutionally unjustified burden the Orders alone imposed. Finally, since the
measures here directly burdened an express right in the Petition Clause, they receive
even more scrutiny than they did vis-à-vis candidates in Esshaki who arguably asserted derivative rights. The severe burden there already warranted strict scrutiny.15
In response, Defendants’ cite several interests – some compelling, others important. None satisfy their burden at any heightened level of scrutiny. Like the Meyer
defendants, the State relies on its interest in fraud prevention. But just as in Meyer,
other state laws proscribing fraud are better tailored and adequate to that end. Risks
of fraud and corruption are also lower for ballot initiatives than for candidates. See
Buckley v. Amer. Const. L. Found., 525 U.S. 182, 203 (1999). In any event, the State
faces only two petitions here (see ECF No. 07, PageID.133), and it fails to provide
any actual evidence of fraud surrounding this election cycle.
Defendants express a concern about orderly elections, “easing administrative
burdens on election officials,” and the burdens involved in canvassing perhaps “hundreds of thousands of signatures” between May 27 and July 24, 2020. (See ECF No.

15

Here, the same activity – signature gathering – is virtually impossible. That burden
on Plaintiffs is more severe than in Esshaki, considering how many more signatures
are needed to receive ballot access. Plaintiff Essahki needed 1,000 signatures. See
MCL § 168.544f. Plaintiffs need 340,047, absent this Court’s relief. The same restrictions apply – the Orders, a signature threshold, and a deadline. The same result
occurs – exclusion from the ballot. Unlike the parties in Thompson, the jointly applied restrictions result in the “exclusion or virtual exclusion from the ballot. Schmitt
v. LaRose, 933 F.3d 628, 639 (2019).
13

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.192

Page 15 of 18

07, PageID.133-134.) The State reviewed three times as many measures in as much
time in 2012. See https://ballotpedia.org/Michigan_2012_ballot_measures. It has
enough time. Moreover, if the State fills the gap of a now-stricken signature requirement by imposing a lower signature quota, it will proportionately lessen its task. For
example, canvassing 50% as many signatures should take roughly half as much time.
That task is already expedited by random sampling measures. (Id., PageID.118.)
As in Esshaki, Defendants assert an interest in “ensuring a modicum of support” for initiatives. (Id., PageID.132.) The Supreme Court has acknowledged that a
lower 5% requirement fully satisfied this interest, see Meyer, 486 U.S. at 420, and
4% is also adequate in some states, see Doe, 561 U.S. at 190-91 (Washington). The
State can decide how much of a modicum it is administratively prepared to process.
As of May 4, 2020, Plaintiffs collected 215,000 valid signatures – more than 5% of
the relevant set of voters – at a pace comfortably expected to exceed the ordinary
requirement. This is a serious ballot initiative with a large base of support. The State
has not and cannot meet its burden to demonstrate that exclusion sufficiently advances its interest in ensuring a modicum of support. The State fails to advance evidence or support to meet any level of scrutiny, much less strict scrutiny, and Plaintiffs are therefore very likely to succeed on the merits.
b. Plaintiffs Will Be Irreparably Harmed Absent Relief
In relation to the point Plaintiff already raised that “even minimal

14

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.193

Page 16 of 18

infringement upon First Amendment,” Newsom v. Norris, 888 F.2d 371, 378 (6th
Cir. 1989), the State concedes at least that “there is an undeniable burden imposed
by these regulations on Plaintiffs.” (ECF No. 07, PageID.127.) Having admitted that
burden, irreparable injury exists. Moreover, without relief, Plaintiffs’ substantial investment of time, money, grassroots will, and political capital, will be wasted.
c. The Balance of Harms and Public Interest Favor an Injunction.
Unlike Plaintiffs, the State does not face significant harms. Firstly, in terms
of administrative burden, only two petitions are at issue, and only one deadline has
elapsed. As noted above, the State has plenty of time before November to proceed
in an orderly fashion to process these initiatives. Moreover, if the State cuts its requirement in half, it only needs to do half the work. Secondly, in terms of the interest
in effectuating Michigan’s constitution and laws, this interest exists in every case
dealing with an unconstitutional state constitutional provision or law. [CITE]. Moreover, the interest recognized in Maryland v. King (PageID.138) in advancing voters’
interest in vindicating a representative democracy is offset by their interest here in
direct democracy. Through the Orders, moreover, the State disrupted – rather than
maintained – the settled public expectations that usually attend an established election-law regime. Thirdly, in terms of the general overlap of the State and public
interests, one thing about the pandemic merits mention. If the Court were to allow
the State to insist that petitioners engage in one-on-one contact despite the COVID-

15

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.194

Page 17 of 18

19 pandemic, that approach would impose on the petitioners and everyone with
whom they had contact and increased risk of debilitating or deadly infection. Additionally, “[i]t is always in the public interest to prevent the violation of a party’s
constitutional rights.” Libertarian Party of Ohio v. Husted, 751 F.3d 403, 412 (6th
Cir. 2014). The failure to meet normal deadlines and thresholds amid a global pandemic cannot outweigh Plaintiffs’ recognized fundamental rights.
CONCLUSION
The combination of the State’s Stay-At-Home Orders, its signature threshold,
and the signature deadline jointly and unconstitutionally burden Plaintiffs’ First
Amendment rights to petition the government for redress, as well as their rights to
speech, association, assembly, ballot access and equal protection. A preliminary injunction is both necessary and proper to avoid a greater harm.
Respectfully Submitted,
June 1, 2020

By: /s/ Saura J. Sahu
Saura J. Sahu (P69627)
CLANCY ADVISORS, PLC
Attorneys for Plaintiff SawariMedia LLC
Saura J. Sahu (P69627)
230 Nickels Arcade
Ann Arbor, MI 48104
(734) 780-7595
sahu@clancyadvisors.com

16

Case 4:20-cv-11246-MFL-MJH ECF No. 12 filed 06/01/20

PageID.195

Page 18 of 18

PROOF OF SERVICE
I hereby certify that on June 1, 2020, I caused the aforementioned and attached
document to be electronically filed through the Court’s electronic CM/ECF filing
system, which will serve a copy and notice of filing on every attorney of record for
Defendants. I also caused to be served via email the following parties:
Judy Kellogg, In Pro Per, judy kellogg95@gmail.com
Deborah Parker, In Pro Per, alinosi@yahoo.com
Paul Ely, In Pro Per, tlc.rgeenyard@yahoo.com
I declare under the penalty of perjury that the above statements are true to the best
of my knowledge, information, and belief.
Respectfully Submitted,
June 1, 2020

By: /s/ Saura J. Sahu
Saura J. Sahu (P69627)
CLANCY ADVISORS, PLC
Attorneys for Plaintiff SawariMedia LLC
Saura J. Sahu (P69627)
230 Nickels Arcade
Ann Arbor, MI 48104
(734) 780-7595
sahu@clancyadvisors.com

17

